HHS/OIG, Audit -"Northeastern University DHHS Grant Costs,"(A-01-02-01502)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Northeastern University DHHS Grant Costs," (A-01-02-01502)
June 5, 2003
Complete
Text of Report is available in PDF format (532 KB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review was to determine whether the cost claimed by Northeastern University (the University) were
allowable, allocable, and reasonable under the terms of the contract and applicable Federal regulations for the two grants
reviewed.  We found that the University was unable to provide supporting documentation for $102,378 in grant expenditures.